May 4, 2010

SYLVESTER BLACK
VICE PRESIDENT, WESTERN AREA

SUBJECT: Management Advisory Report – Des Moines Network Distribution
        Center Congressional Request (Report Number EN-MA-10-003)

This report presents the results of a review at the Des Moines Network Distribution
Center (NDC) (Project Number 10XG027EN000). The report responds to a
congressional request to determine whether the NDC1 maintained a high rate of
employees on disability2 and light-duty status,3 used monitors4 properly, and
appropriately managed the disposition of sorting equipment. This review addresses
financial and operational risks. See Appendix A for additional information about this
review.




                                              Des Moines, IA, NDC

1
  NDCs were originally called bulk mail centers (BMC). In August 2009, the Postal Service changed the name to
NDC, which we use throughout this report.
2
  Disability includes employees on temporary limited duty or permanent rehabilitation status due to a job-related
injury.
3
  Light duty is a voluntary request for a temporary assignment requested by an employee hurt on or off the job.
4
  Monitors include televisions, computers, and DVD players.
Des Moines Network Distribution Center                                                                      EN-MA-10-003
 Congressional Request


We conducted this review in response to a congressional request received on
February 5, 2010. The request was on behalf of a constituent that expressed concerns
regarding management of the Des Moines NDC.

Conclusion

The results of our review do not support the claims of mismanagement asserted in the
complaintant’s letter. Approximately 6 percent of the employees at the Des Moines NDC
were on disability or light-duty status at some time during fiscal year (FY) 2010,5 which
was slightly higher than the Hawkeye District6 average of 5.2 percent, and appeared
reasonable. Facility personnel properly used television monitors in authorized locations
and management’s disposal of parcel sorting equipment7 appeared reasonable, based
on various processing enhancement initiatives from FY 2005 to FY 2009. However,
management did not complete required paperwork when disposing of sorting equipment
components. As a result, mail processing equipment (MPE) with a replacement cost of
$3 million may be at risk of loss due to inadequate internal controls.

Employee Status

The percentage of employees who spent some time on disability and light-duty status at
the Des Moines NDC for FYs 2009 and 2010 was higher than the percentages in the
Hawkeye District. However, the percentage difference was less than 1 percent for FY
2010 and therefore did not appear unreasonably high. See Table 1.

    Table 1. Comparison of Disability and Light-Duty Status of Employees at the
                     Des Moines NDC and Hawkeye District

                             Des Moines NDC                                          Hawkeye District
                Total         Disability  Light Duty                    Total        Disability     Light Duty
FY 2009          461         32     6.9% 20      4.3%                   8,614       508     5.9%   184     2.1%
FY 2010          530         27     5.1% 5       0.9%                   8,312       346     4.2%     80    1.0%


Use of Monitors

NDC employees appropriately used monitors throughout the facility. U.S. Postal Service
management advised us there was no tunnel at the Des Moines NDC where employees
could watch television while on the job, as alleged in the complainant’s letter. During our
site visit, we noted several areas that some might construe to be tunnels; however, we

5
  FY 2010 year-to-date as of February 25, 2010.
6
  Disability and light-duty status is tracked by the Hawkeye District for facilities within its district, including the Des
Moines NDC. Further, the district provides consolidated disability data to headquarters to be reviewed at a national
level. Due to this limitation, we did not include national comparisons.
7
  Parcel sorting equipment are large machines with input stations controlled by a computer that sorts and discharges
parcels from transport trays to primary and secondary separations based on a particular scheme.




                                                             2
Des Moines Network Distribution Center                                        EN-MA-10-003
 Congressional Request


did not see any indication that NDC employees used televisions or monitors in these
locations. We noted televisions and other monitors in several authorized areas of the
facility, such as breakrooms, training areas, and a control room. Management stated
that floor supervisors are attentive to where employees are located in the plant to help
ensure they are performing their assigned jobs.

Disposition of Sorting Equipment

Management’s disposal of sorting equipment appeared reasonable, based on the
various processing enhancement initiatives conducted at the facility from FY 2005 to
FY 2009. However, NDC management did not follow procedures as required in Postal
Service guidance8 to ensure the proper documentation of the disposition of MPE. As a
result, MPE with a replacement cost of $3 million may be at risk of loss due to
inadequate internal controls. See Appendix B for details.

As mail volumes declined, there was no longer a need for some MPE at the Des Moines
NDC.

         In FYs 2004 and 2005, management stopped using two parcel sorting machines
          (PSM), PSM-1 and PSM-2, and began removing parts for use on its two
          remaining active sorters, PSM-3 and PSM-4.

         In FYs 2006 and 2007, the two discontinued sorters were to be removed from the
          facility to make room for new equipment, because the facility was scheduled to
          become a regional distribution center (RDC). PSM-2 was rendered inoperable by
          the removal of trays, track, conveyors, and chain.

         In FYs 2007 and 2008, headquarters management discontinued the RDC
          concept. The decision was made to salvage materials from PSM-2, using NDC
          labor. Most of PSM-2 remained in place at the facility.

         In FY 2009, the Postal Service began transforming the BMC network into the
          NDC network. Under the NDC concept, the Des Moines facility would receive
          increased mail volume. Although use of PSM-1 was discontinued in FY 2005, the
          sorter remained mostly intact. To accommodate the mail volume increase,
          management began reconnecting PSM-1 at a cost of approximately $1.35
          million.

      Management advised that, in addition to using components of PSM-1 and PSM-2 as
      replacement parts on the remaining sorters, they sent the chain from PSM-2 to the
      Memphis NDC and the trays to other facilities that needed replacement trays. Also,
      some metals were removed and sold for recycling.


8
    Handbook AS-701, Material Management, Section 64, June 2005.




                                                       3
 Des Moines Network Distribution Center                                                            EN-MA-10-003
  Congressional Request


                                  Track Removed from PSM-29




Track removed


 Management provided supporting documentation for the recycled metal sale from
 PSM-2. However, management could not provide the documentation10 required for
 disposing of equipment and components. Management believed the documents may
 not have been completed. Although proper documentation was not available to identify
 which components of PSM-1 and PSM-2 had been removed and disposed of,
 management did provide work order reports, check deposit information, and e-mails
 showing the disposition of some components.

 We recommend the vice president, Western Area direct the manager, Des Moines
 Network Distribution Center, to ensure:

 1. Personnel responsible for the management and accountability of mail processing
    equipment adhere to established policies and procedures.

 Management’s Comments

 Management agreed with the findings and recommendation and has taken action to
 ensure personnel adhere to established policies and procedures. See Appendix C for
 management’s comments, in their entirety.

 9
  The red arrow shows where track had been removed.
 10
   AS-701 requires a Postal Service Form 969, Material Recycling and Disposal, to be completed, signed, and
 approved when disposing of equipment, including cannibalization for parts and selling for recycling.




                                                         4
Des Moines Network Distribution Center                                       EN-MA-10-003
 Congressional Request



Evaluation of Management’s Comments

The U.S. Postal Service Office of Inspector General (OIG) considers management’s
comments responsive to the recommendation in the report. Management took action to
address this recommendation prior to providing their management response and the
corrective action should resolve the issue.

We appreciate the cooperation and courtesies provided by your staff. If you have any
questions or need additional information, please contact Michael A. Magalaski, director,
Network Optimization, or me at 703-248-2100.


             E-Signed by Michael A. Magalski
            VERIFY authenticity with ApproveIt

For
Robert J. Batta
Deputy Assistant Inspector General
 for Mission Operations

Attachments

cc: Patrick R. Donahoe
    Steven J. Forte
    Jordan M. Small
    Frank Neri
    Christopher L. Alexander
    Vanessa Kellum
    William J. Herrmann
    Sally K. Haring




                                                 5
Des Moines Network Distribution Center                                                               EN-MA-10-003
 Congressional Request


                            APPENDIX A: ADDITIONAL INFORMATION

BACKGROUND

On January 27, 2010, a congressional letter to the OIG requested assistance with a
constituent inquiry. The constituent’s letter, dated December 11, 2009, stated that the
Postal Service had not addressed the following issues from a previous inquiry:

     1. Why is the rate of employees on disability and light-duty status so high? 

     2. Why are employees allowed to have televisions in the tunnel at the Des Moines
        bulk mail center? 

     3. What happened to the multimillion dollars worth of sorting and identifying
        equipment that was removed by torching and destroyed? 

The Postal Service created BMCs in the early 1970s to support the distribution and
transportation of Standard, Periodical, and Package mail. Declines in mail volume,
increased customer sortation of mail, and mail entered closer to destinations resulted in
excess capacity and shrinking workloads at the 21 BMCs. In May 2009, the Postal
Service re-engineered the BMC network into a new system of NDCs. The core principle
of the NDC concept is to fill containers and trucks early in the network and to dispatch
them as deep into the network as possible.

OBJECTIVES, SCOPE, AND METHODOLOGY

Our objectives were to determine whether the Des Moines NDC:

        Maintained a high rate of employees on disability and light-duty status.
        Used monitors properly.
        Appropriately managed the disposition of sorting equipment.

To accomplish this review, we:

        Interviewed the complainant and Postal Service managers.
        Reviewed Government Accountability Office (GAO) reports regarding work
         provided to injured employees.
        Reviewed OIG reports regarding the management of excess MPE.
        Reviewed and analyzed light-duty and disability rates at the Des Moines NDC.
        Visited the Des Moines NDC and processing and distribution center (P&DC).11
        Reviewed documentation pertaining to MPE that was removed or destroyed.


11
  We made an unscheduled visit to the Des Moines P&DC, because we were informed there was a tunnel at the
facility. The tunnel is actually the basement of the facility, which is used for storage and various maintenance
activities. We did not find television monitors in unauthorized areas.




                                                         6
Des Moines Network Distribution Center                                                               EN-MA-10-003
 Congressional Request


We did not compare disability and light duty statistics nationwide, because the data is
not available at the headquarters level by facility. Light duty data is maintained only at
the local facility level, and disability information is rolled up by areas.

We conducted this review from February through May 2010 in accordance with the
Quality Standards for Inspections.12 We discussed our observations and conclusions
with management on April 7, 2010, and included their comments where appropriate.




12
   These standards were last promulgated by the President’s Council on Integrity and Efficiency (PCIE) and the
Executive Council on Integrity and Efficiency (ECIE) in January 2005. Since then, The Inspector General Act of 1978,
as amended by the IG Reform Act of 2008, created the Council of the Inspectors General on Integrity and Efficiency
(CIGIE), which combined the PCIE and ECIE. To date, the Quality Standards for Inspections have not been amended
to reflect adoption by the CIGIE and, as a result, still reference the PCIE and ECIE.




                                                         7
     Des Moines Network Distribution Center                                          EN-MA-10-003
      Congressional Request


                                        PRIOR AUDIT COVERAGE

    Report Title           Report Number      Final Report Date            Report Results
Excess Mail Processing        EN-AR-10-002      January 11, 2010   Management did not properly and
Equipment in the                                                   promptly dispose of excess carrier
Portland District                                                  sequence barcode sorter machines.
                                                                   As a result, there was an increased
                                                                   risk of loss and misstated value of
                                                                   MPE in financial records. The OIG
                                                                   recommended providing training to
                                                                   personnel responsible for the
                                                                   management and accountability of
                                                                   MPE and adhering to established
                                                                   policies and procedures.
                                                                   Management agreed with both
                                                                   recommendations.  
The Program for                GAO-10-78       December 14, 2009   The Postal Service had not
Reassessing Work                                                   completely implemented the
Provided to Injured                                                National Reassessment Process.
Employees Is Under                                                 Available data on employee
Way, but Actions Are                                               outcomes were limited and
Needed to Improve                                                  preliminary, because
Program Management                                                 implementation was ongoing and
                                                                   the Postal Service did not track
                                                                   employees who received medically
                                                                   suitable and necessary work — the
                                                                   goal of the program. The Postal
                                                                   Service reported to Congress that
                                                                   the program saved $146 million in
                                                                   FY 2008. However, the Postal
                                                                   Service did not disclose that these
                                                                   reported savings did not reflect any
                                                                   limitations in its cost estimation
                                                                   methodology.

                                                                   The GAO recommended the Postal
                                                                   Service establish program
                                                                   completion timeliness, track and
                                                                   measure outcomes, and disclose
                                                                   limitations of its reported cost
                                                                   savings. Management agreed with
                                                                   the GAO’s third recommendation
                                                                   and disagreed with the first two.




                                                  8
Des Moines Network Distribution Center                                                                     EN-MA-10-003
 Congressional Request



                                APPENDIX B: NON-MONETARY IMPACTS

                  Finding                                Impact Category                             Amount
            Disposition of Sorting
                                                      Safeguarding Assets13                          $3 million
                 Equipment




13
     Assets or accountable items that are at risk of loss because of inadequate internal controls.




                                                             9
Des Moines Network Distribution Center                     EN-MA-10-003
 Congressional Request


                       APPENDIX C: MANAGEMENT’S COMMENTS




                                         10
